                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                  December 17, 2013



MEMORANDUM TO:             Chairman Macfarlane




FROM:                      Hubert T. Bell /RA/
                           Inspector General


SUBJECT:                   INDEPENDENT AUDITORS’ REPORT ON THE U.S.
                           NUCLEAR REGULATORY COMMISSION’S CLOSING
                           PACKAGE FINANCIAL STATEMENTS AS OF SEPTEMBER
                           30, 2013 and 2012, AND FOR THE YEARS THEN ENDED
                           (OIG-14-A-07)


This memorandum transmits the CliftonLarsonAllen, LLP (CLA) Independent Auditors’
Report on the U.S. Nuclear Regulatory Commission’s (NRC) Closing Package Financial
Statements, including the reclassified balance sheets, as of September 30, 2013 and
2012, and the related reclassified statements of net cost and changes in net position for
the years then ended (Attachment 1). This audit was performed for the purpose of
providing financial information to the U.S. Department of the Treasury and the U.S.
Government Accountability Office for use in preparing and auditing the Financial Report
of the U.S. Government. The Office of the Inspector General (OIG) retained the services
of CLA to conduct this audit.

Audit Results

CLA issued an unmodified opinion, dated December 16, 2013, on the closing package
balance sheets of the NRC as of September 30, 2013 and 2012, and the related closing
package statements of net cost and changes in net position for the years then ended.
NRC’s closing package financial statements include comparative financial statements for
fiscal years 2013 and 2012 (Attachment 2).

If you have any questions, please call me at 415-5930 or Stephen Dingbaum, Assistant
Inspector General for Audits, at 415-5915.
Attachments: As stated


cc:   Commissioner Svinicki
      Commissioner Apostolakis
      Commissioner Magwood
      Commissioner Ostendorff
      J. Dyer, CFO
      R. Mitchell, OEDO
      M. Khanna, OEDO
      J. Arildsen, OEDO
      C. Jaegers, OEDO
                                                                                                Attachment 1

                                                                       CliftonLarsonAllen LLP

                                                                       www.cliftonlarsonallen.com




                         INDEPENDENT AUDITORS’ REPORT
                    ON CLOSING PACKAGE FINANCIAL STATEMENTS


Inspector General
United States Nuclear Regulatory Commission

Chairman
United States Nuclear Regulatory Commission

In our audit of the fiscal year (FY) 2013 closing package financial statements of the United
States Nuclear Regulatory Commission (NRC), we found:

      The closing package financial statements are presented fairly, in all material respects, in
       accordance with accounting principles generally accepted in the United States of
       America (U.S.);
      No material weaknesses in internal control over financial reporting; and
      No instances of reportable noncompliance with selected provisions of laws, regulations,
       contracts, and grant agreements tested.

The following sections discuss in more detail: (1) these conclusions and other matters related to
the closing package financial statements; (2) our conclusions in connection with our audit of the
general purpose financial statements; (3) management’s responsibilities; and (4) our
responsibilities.

Report on the Closing Package Financial Statements

We have audited the accompanying Closing Package Financial Statement Report (herein
referred to as the closing package financial statements) of NRC, which comprise:
     the Closing Package Financial Statement Report – Balance Sheet as of September 30,
        2013 and 2012;
     the related Closing Package Financial Statement Reports - Statement of Net Cost and
        Statement of Changes in Net Position, for the years then ended;
     the accompanying Financial Report (FR) Notes Report (except for the information in the
        FR Notes Report entitled “Threshold”) for the years then ended;
     the accompanying Additional Notes A and B;
     the accompanying Trading Partner Summary Note Report – Balance Sheet as of
        September 30, 2013 and 2012;
     the related Trading Partner Summary Note Report – Statement of net cost and
        Statement of Changes in net Position for the years then ended.
INDEPENDENT AUDITORS’ REPORT ON CLOSING PACKAGE FINANCIAL STATEMENTS
                              (Continued)


Management’s Responsibility for the Closing Package Financial Statements

Management is responsible for the preparation and fair presentation of these closing package
financial statements in accordance with U.S. generally accepted accounting principles. This
includes the design, implementation, and maintenance of internal control relevant to the
preparation and fair presentation of the closing package financial statements that are free from
material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these closing package financial statements based
on our audit. We conducted our audit in accordance with auditing standards generally accepted
in the U.S. and the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States. Those standards require
that we plan and perform the audit to obtain reasonable assurance about whether the closing
package financial statements are free from material misstatement. We also conducted our audit
in accordance with Office of Management and Budget (OMB) Bulletin No. 14-02, Audit
Requirements for Federal Financial Statements (OMB Bulletin 14-02).

An audit involves performing procedures to obtain audit evidence about the amounts and
disclosures in the closing package financial statements. The procedures selected depend on the
auditors’ judgment, including the assessment of the risks of material misstatement of the closing
package financial statements, whether due to fraud or error. In making those risk assessments,
the auditor considers internal control relevant to the agency’s preparation and fair presentation
of the closing package financial statements in order to design audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the
effectiveness of the agency’s internal control. Accordingly, we express no such opinion. An audit
also includes evaluating the appropriateness of accounting policies used and the
reasonableness of significant estimates made by management, as well as evaluating the overall
presentation of the closing package financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a
basis for our opinion.

Opinion on the Closing Package Financial Statements 

In our opinion, the closing package financial statements referred to above present fairly, in all
material respects, the financial position of NRC as of September 30, 2013 and 2012, and its net
cost and changes in net position for the years then ended in conformity with accounting
principles generally accepted in the U.S.

Emphasis of Matter
As discussed in Additional Note No. A to the closing package financial statements, the
accompanying closing package financial statements were prepared to comply with the
requirements of the U.S. Department of the Treasury’s Treasury Financial Manual (TFM)
Volume I, Part 2, Chapter 4700 for the purpose of providing financial information to the U.S.
Department of the Treasury and the U.S. Government Accountability Office to use in preparing
and auditing the Financial Report of the U.S. Government, and are not intended to be a
complete presentation of the balance sheets of NRC as of September 30, 2013 and 2012, and
INDEPENDENT AUDITORS’ REPORT ON CLOSING PACKAGE FINANCIAL STATEMENTS
                              (Continued)

the related statements of net costs and changes in net position, and statements of budgetary
resources (hereinafter referred to as “general-purpose financial statements”) for the years then
ended. Our opinion is not modified with respect to this matter.

Other Matters
We have audited, in accordance with auditing standards generally accepted in the U.S. and the
standards applicable to financial audits contained in Government Auditing Standards issued by
the Comptroller General of the United States the general-purpose financial statements of NRC
as of and for the years ended September 30, 2013 and 2012, and our report thereon, dated
December 2, 2013, expressed an unmodified opinion on those financial statements.

U.S. generally accepted accounting principles require that the information in Other Data Report
Nos. 1, 8, 9, and 14, through 17, except for the information included in the Other Text Data of
Other Data Report No. 1 (which is discussed below) be presented to supplement the basic
financial statements. Such information, although not a part of the basic financial statements, is
required by the Federal Accounting Standards Advisory Board who considers it to be an
essential part of financial reporting for placing the basic financial statements in an appropriate
operational, economic, or historical context. We have applied certain limited procedures to the
required supplementary information in accordance with auditing standards generally accepted in
the U.S., which consisted of inquiries of management about the methods of preparing the
information and comparing the information for consistency with management’s responses to our
inquiries, the basic closing package financial statements, and other knowledge we obtained
during our audits of the closing package financial statements. We do not express an opinion or
provide any assurance on the information because the limited procedures do not provide us with
sufficient evidence to express an opinion or provide any assurance.

Management has omitted the Schedule of Budgetary Resources and Management Discussion
and Analysis that U.S. generally accepted accounting principles require to be presented to
supplement the basic closing package financial statements. Such missing information, although
not a part of the basic closing package financial statements, is required by the Federal
Accounting Standards Advisory Board who considers it to be an essential part of financial
reporting for placing the general-purpose financial statements in an appropriate operational,
economic, or historical context. Our opinion on the closing package financial statements is not
affected by this missing information.

Other Information

Our audit was conducted for the purpose of forming an opinion on the basic closing package
financial statements as a whole. The information in the Other Text Data of Other Data Report
No. 1, the information in the sections entitled “Threshold” in Notes Status Report Nos. 3, 6, 15,
and 19, the information in the Closing Package Line Reclassification Summary Report –
Balance Sheet, and the information in the Closing Package Line Reclassification Summary
Reports – Statement of Net Cost and Statement of Changes in Net Position are presented for
purposes of additional analysis in accordance with TFM Chapter 4700 and are not a required
part of the closing package financial statements. Such information has not been subjected to
the auditing procedures applied in the audits of the closing package financial statements and,
accordingly, we do not express an opinion or provide any assurances on it.
INDEPENDENT AUDITORS’ REPORT ON CLOSING PACKAGE FINANCIAL STATEMENTS
                              (Continued)

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued a combined report
dated December 2, 2013 that discusses our opinion on NRC’s internal control over financial
reporting, and the results of our tests of its compliance with certain provisions of laws,
regulations, contracts, and grant agreements and other matters that are required to be reported
under Government Auditing Standards. The combined report is an integral part of an audit
performed in accordance with U.S. Government Auditing Standards in considering NRC’s
internal control and compliance, and should be read in conjunction with this report in
considering the results of our audit of the closing package financial statements.

In our fiscal year 2013 audit of the basic general-purpose financial statements of NRC, we noted
no material weaknesses and no instances of reportable noncompliance.

Report on Internal Control over Financial Reporting Specific to the Closing Package
Financial Statements

In planning and performing our audit of the closing package financial statements as of and for
the year ended September 30, 2013, we also considered NRC’s internal control over the
financial reporting (internal control) to determine the audit procedures that are appropriate in the
circumstances for the purpose of expressing our opinion on the closing package financial
statements, but not for the purpose of expressing an opinion of the effectiveness of NRC’s
internal control over closing package financial reporting. Accordingly, we do not express an
opinion on the effectiveness of NRC’s internal control over closing package financial reporting.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in their normal course of performing their assigned functions, to
prevent, or detect and correct, misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected, on a timely basis.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness yet important enough to merit the attention by those
charged with governance. Our consideration of internal control was for the limited purpose
described in the preceding paragraph and was not designed to identify all deficiencies in internal
control that might be material weaknesses or significant deficiencies. Given these limitations,
during our audit we did not identify any deficiencies in internal control that we consider to be
material weaknesses. However, material weaknesses may exist that have not been identified.

Report on Compliance and Other Matters Specific to the Closing Package Financial
Statements

As part of obtaining reasonable assurance about whether NRC’s closing package financial
statements are free from material misstatement, we also performed tests of its compliance with
certain provisions of TFM Chapter 4700. However, providing an opinion on compliance with
those provisions was not an objective of our audit of the closing package financial statements,
and accordingly, we do not express such an opinion. The results of our tests of compliance with
TFM Chapter 4700 disclosed no instances of noncompliance or other matters that are required
to be reported under Government Auditing Standards.
INDEPENDENT AUDITORS’ REPORT ON CLOSING PACKAGE FINANCIAL STATEMENTS
                              (Continued)


Purpose of the Other Reporting Required by Government Auditing Standards

The purpose of the communication provided in the Other Reporting Required by Government
Auditing Standards section is solely to describe the scope of our testing of internal control over
financial reporting and compliance and the results of that testing, and not to provide an opinion
on the effectiveness of NRC’s internal control or on compliance. This communication is an
integral part of an audit performed in accordance with U.S. generally accepted government
auditing standards in considering internal control and compliance with provisions of laws and
regulations, contracts, and grant agreements that have a material effect on the closing package
financial statements. Accordingly, this communication is not suitable for any other purpose.

Restriction on Use of the Report on the Closing Package Financial Statements

This report is intended solely for the information and use of NRC’s management, the NRC
Office of Inspector General, the U.S. Department of the Treasury, OMB, and the
U.S. Government Accountability Office in connection with the preparation and audit of the
Financial Report of the U.S. Government and is not intended to be and should not be used by
anyone other than these specified parties.




Arlington, Virginia
December 16, 2013
                                                                                          12/13/2013 10:31:46
                                        U.S.Department of the Treasury
                                         Financial Management Service                         Attachment 2
                                    Governmentwide Financial Report System

                                            GF002A - Audited FS Report


Statement:    BALANCE SHEET                           Fiscal Year: 2013             Period:   SEPTEMBER
Entity: 3100-U. S. Nuclear Regulatory Commission      Reported in: THOUSANDS        Decimal: ZERO


Agency Line Description                                      FY 2013-SEPTEMBER           FY 2012-SEPTEMBER

Assets
Intragovernmental
Fund balances with Treasury (Note 2)                                      318,244                     357,529
Accounts receivable (Note 3)                                                8,779                       7,660
Other-Advances and Prepayments                                              4,935                      11,736
Total Intragovernmental                                                   331,958                     376,925

Accounts receivable, net (Note 3)                                          83,029                      92,946
Property and equipment, net (Note 4)                                      107,771                      99,982
Other                                                                          17                          14
Total Assets                                                              522,775                     569,867

Liabilities
Intragovernmental
Accounts payable                                                            9,322                      16,900
Other (Notes 5)                                                             4,238                       3,896
Total Intragovernmental                                                    13,560                      20,796

Accounts payable                                                           28,726                      26,272
Federal employees benefits (Note 6)                                         7,023                       7,224
Other (Note 5)                                                             70,189                      70,301
Total Liabilities                                                         119,498                     124,593

Net Position
Unexpended appropriations                                                 242,640                     285,080
Cumulative results of operations (Note 8)                                 160,637                     160,194
Total Net Position                                                        403,277                     445,274
Total Liabilities and Net Position                                        522,775                     569,867




                                                        - 1 -
                                                                                            12/13/2013 10:31:46
                                       U.S.Department of the Treasury
                                        Financial Management Service
                                   Governmentwide Financial Report System

                                           GF002A - Audited FS Report


Statement:   STATEMENT OF NET COST                   Fiscal Year: 2013                Period:   SEPTEMBER
Entity: 3100-U. S. Nuclear Regulatory Commission     Reported in: THOUSANDS           Decimal: ZERO


Agency Line Description                                     FY 2013-SEPTEMBER              FY 2012-SEPTEMBER

Nuclear Reactor Safety and Security
Gross costs                                                               831,114                       824,091
Less: Earned revenue                                                     (760,283)                     (815,701)
Total Net Cost of Nuclear Reactor Safety and                               70,831                         8,390
Security (Note 9)

Nuclear Materials and Waste Safety and
Security
Gross costs                                                               232,011                       228,000
Less: Earned revenue                                                      (91,959)                      (88,630)
Total Net Cost of Nuclear Materials and Waste                             140,052                       139,370
Safety and Security (Note 9)

Total Gross Costs                                                        1,063,125                    1,052,091
Total Earned Revenue                                                      (852,242)                    (904,331)
Net Cost of Operations                                                     210,883                      147,760




                                                       - 2 -
                                                                                          12/13/2013 10:31:46
                                        U.S.Department of the Treasury
                                         Financial Management Service
                                    Governmentwide Financial Report System

                                          GF002A - Audited FS Report


Statement:   STATEMENT OF CHANGES IN NET            Fiscal Year: 2013               Period:   SEPTEMBER
             POSITION
Entity: 3100-U. S. Nuclear Regulatory Commission    Reported in: THOUSANDS          Decimal: ZERO


Agency Line Description                                    FY 2013-SEPTEMBER             FY 2012-SEPTEMBER

Cumulative Results of Operations
Beginning Balances                                                      160,194                       105,193

Budgetary Financing Sources
Appropriations used                                                     176,169                       169,056
Non-Exchange revenue                                                        482                           697
Transfers-in/out without reimbursement                                        0                             0

Other Financing Sources
Imputed financing from costs absorbed by others                           35,157                       33,705
Other - Revenue from excess collections                                     (482)                        (697)
Total Financing Sources                                                  211,326                      202,761
Net Cost of Operations                                                  (210,883)                    (147,760)
Net Change                                                                   443                       55,001
Cumulative Results of Operations                                         160,637                      160,194
Unexpended Appropriations
Beginning Balances                                                      285,080                       310,332
Change in accounting principle                                                0                             0
Beginning Balance, as Adjusted                                          285,080                       310,332

Budgetary Financing Sources
Appropriations Received                                                  186,209                      143,804
Other Adjustments(Recission)                                             (52,480)                           0
Appropriations used                                                     (176,169)                    (169,056)
Total Budgetary Financing Sources                                        (42,440)                     (25,252)
Total Unexpended Appropriations                                          242,640                      285,080
Net Position                                                             403,277                      445,274




                                                      - 3 -
